   June 24, 2004




Logistics
Navy Controls Over Materiel Sent to
Defense Reutilization and Marketing
Offices
(D-2004-095)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

DAAS                  Defense Automatic Addressing System
DLA                   Defense Logistics Agency
DEMIL                 Demilitarization
DRMO                  Defense Reutilization and Marketing Office
DRMS                  Defense Reutilization and Marketing Service
DTID                  Disposal Turn In Document
ICS                   In-transit Control System
NADEP                 Naval Aviation Depot
NAVICP                Naval Inventory Control Point
RRAM                  Realtime Reutilization Asset Management
           Office of the Inspector General of the Department of Defense
Report No. D-2004-095                                                       June 24, 2004
   (Project No. D2003LD-0081)

                 Navy Controls Over Materiel Sent to Defense
                    Reutilization and Marketing Offices

                                Executive Summary

Who Should Read This Report and Why? Logistics personnel responsible for
disposing materiel that is excess to DoD requirements should read this report since it
addresses needed in-transit control improvements.

Background. The Defense Reutilization and Marketing Service (DRMS) is an
organization within the Defense Logistics Agency that is responsible for the reutilization,
transfer, donation, sale, and disposal of materiel that is excess to DoD requirements. In
FY 2002, Defense Reutilization and Marketing Offices, which are field offices of DRMS,
received approximately $15.8 billion (acquisition cost) worth of materiel for disposal.
Of the $15.8 billion, $2.1 billion of materiel was received from Navy organizations.
Navy organizations that ship materiel to DRMS are required to provide shipment
notification transactions to DRMS. DRMS maintains an in-transit control system based
on shipment notification transactions in order to monitor shipments of usable materiel
with a line-item value of $800 or more and for all shipments of pilferable or sensitive
materiel, regardless of dollar value.

Results. The controls over materiel designated for or sent to DRMS need improvement.
Some material that was reported as shipped to disposal was neither recorded as received
at DRMS nor accounted for on inventory records, and Navy organizations did not send
proper disposal shipment notifications to DRMS. Defense Logistics Agency storage
depots did not properly account for materiel awaiting demilitarization instructions and
DRMS management data was inaccurate and not properly utilized. A judgmental sample
of 700 Navy disposal transactions, valued at $134.3 million, indicated that only
349 transactions, valued at $34.1 million, were properly recorded as received by DRMS.
Of the remaining 351 transactions:

       •    147 transactions, valued at $37.7 million, were not recorded as received by
            DRMS and were not recorded on accountable supply records ($32.3 million of
            the $37.7 million worth of materiel was located with the assistance of depot
            personnel);

       •    5 transactions, valued at $4.1 million, were recorded as partial receipts by
            DRMS, with some materiel recorded as received ($2.8 million) and some
            material neither recorded as received nor accounted for on accountable supply
            records ($1.3 million); and

       •    199 transactions, valued at $58.4 million, were erroneously reported to DRMS
            as disposal transactions.
As a result, $39 million worth of Government property that was not recorded on
accountable supply records was vulnerable to loss or undetected theft, and resources
could be expended unnecessarily in researching erroneous disposal transactions. The
Commander, Naval Supply Systems Command, should establish controls to ensure that
Navy organizations comply with procedures to account for materiel designated for
shipment to disposal. The Director, Defense Logistics Agency, should establish controls
over materiel requiring demilitarization and require DRMS to review and analyze
management data. (See the Finding section of this report for the detailed
recommendations.) We reviewed the management control program as it related to
controls over repairable and consumable assets that the Navy determined to be excess or
uneconomical to repair. Management controls over assets did not ensure that materiel
was shipped to or received by DRMS.

Management Comments. The Navy and the Defense Logistics Agency concurred with
the recommendations and the Navy also agreed to identify shipments to disposal as an
assessable unit as part of its 2004 management control program. See the Finding section
of the report for a discussion of management comments and the Management Comments
section of the report for the complete text of the comments.




                                           ii
Table of Contents

Executive Summary                             i

Background                                   1

Objectives                                   2

Finding
     Management of the Disposal Process      3

Appendixes
     A. Scope and Methodology                12
         Management Control Program Review   13
         Prior Coverage                      14
     B. Report Distribution                  15


Management Comments
     Department of the Navy                  17
     Defense Logistics Agency                23
Background
    Defense Reutilization and Marketing Service. The Defense Reutilization and
    Marketing Service (DRMS) is an organization within the Defense Logistics Agency
    (DLA) that is responsible for the reutilization, transfer, donation, sale, and disposal of
    materiel that is excess to DoD requirements. In FY 2002, Defense Reutilization and
    Marketing Offices (DRMOs), which are field offices of DRMS, received
    approximately $15.8 billion (acquisition cost) worth of materiel for disposal. Of the
    $15.8 billion, $2.1 billion of materiel was received from Navy organizations.

    DoD Guidance. DoD Manual 4000.25-1-M, “Military Standard Requisitioning and
    Issue Procedures,” February 11, 2002, provides procedures for processing shipments
    of materiel to DRMOs. DoD organizations are required to prepare a disposal turn-in
    document (DTID) that accompanies disposal shipments and to provide a shipment
    notification transaction to DRMS for each shipment of materiel to DRMO. If a
    shipment notification transaction is for either usable property with a line-item value
    of $800 or more or for a shipment of pilferable or sensitive materiel regardless of
    dollar value, DRMS establishes a due-in for the shipment in the in-transit control
    system (ICS). The ICS provides for the in-transit control of materiel shipped to
    DRMO from the time a due-in is established until the receipt of the materiel by
    DRMO.

    When materiel is received at DRMO, DRMO processes a receipt transaction. If the
    transaction meets the criteria for inclusion in the ICS, the transaction is compared
    with dues-in previously established in the ICS. If the receipt transaction matches a
    due-in, the due-in will be closed. If, after 90 days from the date DRMO posts a
    receipt transaction there is no matching ICS due-in, DRMS sends a disposal receipt
    confirmation follow-up transaction (document identifier code AFX with advice
    code 36) to the organization identified in the receipt transaction. That follow-up
    transaction alerts the organization that materiel was received without the required
    shipping notification transaction. DoD organizations are not required to respond to
    that follow-up transaction.
    DRMS sends a disposal shipment confirmation follow-up transaction (document
    identifier code AFX with advice code 37) if, after 90 days, there is no receipt for an
    ICS due-in. DoD organizations are required to respond to that follow-up transaction
    by reviewing shipping documentation and providing the status to DRMS. If either
    the materiel or status is not received by DRMS within 30 days of that follow-up
    transaction, a second disposal shipment confirmation follow-up transaction
    (document identifier AFZ with advice code 37) is sent. A due-in remains open for
    1 year from the date established if either the materiel is not received or the status is
    not provided. After 1 year, the due-in is transferred to a history file.
    Prior and Related Audits. The Inspector General of the Department of Defense and
    the General Accounting Office have previously issued reports that addressed
    weaknesses in controls over materiel shipped to DRMOs (Appendix A). In response
    to recommendations in those reports, DoD convened an Integrated Process Team to
    examine and resolve problems with materiel in-transit to DRMOs. As a result of the
    team’s evaluation, a training web site was created with an instruction guide that
    stresses accountability and responsibility for disposal shipments. Additionally,


                                            1
    DoD Manual 4000.25-1-M was revised to require edits of shipment notification
    transactions to prevent erroneous transactions from passing between shipping
    organizations and the DRMS, and the ICS was changed to revise the criteria for
    matching in-transit transactions and the time frames for sending DRMS follow-up
    transactions.


Objectives
    The initial overall audit objective was to evaluate the process used by the Navy to
    dispose of repairable assets, and we planned to specifically evaluate the controls in
    place to ensure that repairable assets managed by the Naval Inventory Control Point
    (NAVICP) and identified as excess or uneconomical to repair were appropriately
    disposed of and received by the DRMS. However, based upon our survey work, we
    revised the objective to evaluate the controls in place for both consumable and
    repairable assets that the Navy identified as excess or uneconomical to repair,
    regardless of the inventory manager, to determine if the assets were received by the
    DRMS. We also reviewed the management control program as it related to the
    revised audit objective. See Appendix A for a discussion of the scope and
    methodology, our review of the management control program, and prior coverage
    related to the objective.




                                           2
            Management of the Disposal Process
            The controls over materiel designated for or sent to DRMS by the Navy
            needed improvement. Specifically, accurate accountability over property
            in-transit was lacking. Based on a judgmental sample of 700 Navy disposal
            transactions, valued at $134.3 million, for the period of March 2002 to
            July 2003:

                    •   349 transactions, valued at $34.1 million, were properly recorded
                        as received by the DRMS;

                    •   147 transactions, valued at $37.7 million, were neither recorded as
                        received by the DRMS nor recorded on accountable supply records
                        ($32.3 million of the $37.7 million worth of materiel was located
                        with the assistance of depot personnel);

                    •   5 transactions, valued at $4.1 million, were recorded as partial
                        receipts, with some materiel recorded as received ($2.8 million)
                        and some material neither recorded as received nor accounted for
                        on accountable supply records ($1.3 million); and

                    •   199 transactions, valued at $58.4 million, were erroneously
                        reported to the DRMS as disposal transactions.

            Those conditions occurred because of non-compliance with existing guidance,
            computer programming errors, and lack of management oversight. As a
            result, $39 million worth of Government property not recorded on accountable
            supply records was vulnerable to loss, and resources could be expended
            unnecessarily in order to research erroneous disposal transactions.


Criteria
     Navy Procedures. Naval Supply Systems Command (NAVSUP) P-485, “Ashore
     Supply,” June 1998, provides procedures for the control of in-transit materiel shipped
     to DRMOs. Navy organizations are required to provide a disposal shipping
     notification to DRMS at the time materiel is physically shipped or transferred to a
     DRMO. Organizations that do not have the capability of preparing disposal shipment
     notifications should work through a support activity to ensure that shipment
     documentation is correct and is sent to DRMS. Supply organizations that receive
     DRMS follow-up transactions are required to review the transactions to ensure that
     appropriate research is conducted. Supply organizations are also required to ensure
     that shipping organizations review receipt documentation, investigate discrepancies,
     and provide timely responses to DRMS follow-up transactions. Responses to DRMS
     follow-up transactions should reflect the results of research rather than an automatic
     computer generated response. Quantities of material that are dropped from
     accountable records should be matched against the quantities that have actually
     shipped. Diligence in researching DRMS follow-up transactions is essential to the
     integrity of the ICS system. When evidence exists that unresolved discrepancies are



                                           3
     the result of theft or other forms of fraudulent activity, organizations are required to
     report the discrepancies to the appropriate criminal investigative office.

     DoD Manual. DoD Manual 4160.21-M-1, “Defense Demilitarization Manual,”
     February 1995, provides guidance for the demilitarization of materiel by the Services.
     The manual states that the Services shall establish and maintain Special Defense
     Property Disposal Accounts and will maintain responsibility for ammunition,
     explosives and dangerous articles, classified material, inert material, small arms
     weapons, and any items that require demilitarization (demil), declassification, or
     reclamation prior to the physical and accountable transfer of materiel to DRMO.
     DoD item managers are to assign a demil code to identify materiel that must be
     demilitarized. The instruction further provides that, depending on the assigned demil
     code, some disposal transactions require demilitarization or disposition instructions
     before the materiel can be shipped to and accepted by the DRMO.
     DLA Instructions. DRMS Instruction 4160.14 Vol. IV, “Policy and Procedures In
     Disposal Operation for Property Accounting and the Defense Reutilization and
     Marketing Offices,” November 2003, defines demil as the act of destroying the
     militarily offensive or defensive advantages inherent in certain types of materiel.

     Defense Distribution Depot Memorandum, “Instructions for Holding Disposal
     Release Orders for Materiel with Demilitarization Codes ‘F’, ‘G’, or ‘P’,” June 2003,
     requires that DLA storage depots do not ship materiel with demil codes F, G, or P to
     disposal facilities until disposition instructions are obtained from the DoD item
     manager. The memorandum states that DLA distribution depots are responsible for
     maintaining control and accountability of all Navy materiel until it is shipped from
     the depot. If the depot does not receive disposition instructions within 21 days of the
     receipt of a disposal transaction, the depot is to reverse the disposal transaction and
     add the materiel back to the inventory records. If the materiel is not added back to
     the inventory records, there is no accountability and visibility of the materiel.

Materiel Designated for or Shipped to Disposal
     The controls over materiel designated for or sent to DRMS by the Navy needed
     improvement. Some material was erroneously reported to DRMS as having been
     shipped to disposal, and materiel identified as having been shipped to disposal was
     sometimes neither recorded as received at the DRMS nor accounted for on supply
     records. Those conditions occurred because of non-compliance with existing DoD
     and Navy guidance for processing materiel to disposal.
     To determine if materiel designated for or sent to disposal was received at DRMOs or
     otherwise accounted for, we selected judgmental samples of 700 disposal
     transactions, valued at about $134.3 million, that were processed by 13 Navy
     organizations and 2 contractors that repair Navy repairable assets. The 700 disposal
     transactions were selected from either a database provided by the Defense Automatic
     Addressing System (DAAS) of follow-up transactions for materiel reported as
     shipped but not received, a database of disposal shipments provided by NAVICP, or
     disposal shipments selected from the supply records of the 15 organizations
     evaluated. See Appendix A for discussion of the sampling selection methodology.




                                             4
Of the 700 disposal transactions reviewed, 349 transactions, valued at $34.1 million,
were properly recorded as received by DRMS. The remaining 351 transactions,
valued at $100.2 million, were either not recorded or partially recorded as received at
the DRMS or represented an erroneous disposal transaction.

Disposal Transactions. Of the 351 transactions, 147 transactions, valued at
$37.7 million, were neither recorded as received at DRMS nor recorded on
accountable inventory records, and 5 transactions, valued at $4.1 million, were
recorded as only partial receipts, valued at $2.8 million. The remaining $1.3 million
of the $4.1 million was neither recorded as received at DRMS nor recorded on
accountable inventory records. Of the $39 million ($37.7 million plus $1.3 million)
worth of materiel that was neither recorded as received at DRMS nor recorded on
accountable supply records, materiel related to 34 transaction, valued at $32.3
million, was located, during our review, with the assistance of depot personnel. Of
the 147 transactions:
       •   33 transactions were for materiel that required demil and was not shipped
           to DRMS,

       •   27 transactions were for materiel that was not shipped to DRMS but which
           was located in the warehouse,

       •   87 transactions were for materiel that was recorded as shipped to DRMS
           but was not located.

Demil Items. For 33 transactions valued at $35.7 million, materiel was dropped from
accountable supply records but not shipped to DRMS because the Navy either did not
provide demil instructions to DLA depots or when the demil instructions were
provided, DLA depots did not act on them. Additionally, DLA depots did not
follow-up with Navy organizations when instructions were requested and not
received and did not take action to add the materiel back on to inventory records to
provide accountability and visibility of the materiel. The 33 transactions consisted of
items that had been assigned a demil code of either F or P. Demil code F materiel
requires demilitarization instructions to be furnished by the item manager before
processing the disposal transaction to the depot. Demil code P materiel must be
demiled before processing the disposal transaction to the depot. With the assistance
of DLA depot personnel, we were able to locate materiel related to
seven transactions, which was valued at $32.2 million.
Of the 33 transactions, materiel related to 25 transactions, valued at $3.5 million, was
considered sensitive or pilferable. For example, on August 5, 2002, a pilferable
valve, valued at $5,906, was dropped from the accountable inventory records without
the required disposition instructions having been provided by the Navy. As of
September 25, 2003, the depot had not requested the demil instructions and had not
taken action to reverse the disposal transaction. As a result, there was no
accountability or visibility of the materiel for almost 14 months. Additionally, none
of the $3.5 million worth of materiel could be located.




                                       5
Materiel Not Shipped. For 27 transactions valued at $65,000, the materiel had been
dropped from the Navy accountable records; however, the materiel had not been sent
to DRMO by the shipping organization. The shipping organization, Naval Air
Station Patuxent River, Maryland, advised us that it had located the materiel and, as a
result of our audit, would review materiel in its storage facility to ensure that materiel
designated for disposal was shipped to disposal.

Materiel Not Located. Materiel related to 87 transactions, valued at approximately
$1.9 million, was not recorded on accountable supply records and could not be
located. Of the 87 transactions, materiel related to 35 transactions, valued at
$1.1 million, was considered pilferable. For example, at the Defense Depot San
Diego, California, a pilferable enclosure assembly, valued at $37,680, was not
recorded as received by DRMS and could not be located at the depot as of
October 31, 2003. The enclosure assembly was dropped from Navy inventory
records on October 22, 2002.
Materiel Partially Received. For five transactions, valued at $4.1 million,
$2.8 million worth of material was recorded as received by DRMS, and $1.3 million
worth of material was not recorded as received and could not be located by the
shipping organizations.

Non-Disposal Transactions. Of the 351 disposal transactions, 199 transactions,
valued at $58.4 million, were erroneously reported to DRMS as disposal transactions.
The erroneous transactions occurred because Navy organizations sent shipment
notification transactions to DRMS prior to shipping the materiel and later determined
that the materiel either did not qualify for disposal or should have been downgraded
to scrap. That practice is contrary to the NAVSUP P-485 requirement to transmit
shipping notification transactions to DRMS when materiel is shipped to DRMO.

        Reutilization. Materiel for 102 disposal transactions, valued at $28.7 million,
was not shipped to DRMS because it was utilized by other Navy organizations.
Reutilization occurs when an organization needs the materiel to meet known or
anticipated requirements.

       Scrap. Materiel for 60 disposal transactions, valued at $28.1 million, was not
shipped to DRMS because the materiel was subsequently classified as scrap.

        Hazardous Materiel and Cylinders Items. Materiel for 27 disposal
transactions, valued at $165,000, was shipped to a hazardous materiel site instead of
to DRMO. Navy organizations have a program to screen hazardous materiel and
cylinder items for reuse or subsequent disposal.

        Pharmaceutical Returns Management Program. Materiel for four disposal
transactions, valued at $15,000, was included in a Pharmaceutical Returns
Management Program, which requires that Government organizations send specified
prescription, medical, surgical, and diagnostic products to medical contractors instead
of to DRMO.

       Rejected Transactions. Materiel for six disposal transactions, valued at
$1.4 million, was not in stock at the depot. The depot rejected the six transactions
because the materiel was not available for shipment to disposal.


                                        6
     Navy personnel stated that procedures to research and respond to DRMS follow-up
     transactions that would have detected the problems we identified had not been
     followed because of a lack of resources, a lack of awareness for monitoring
     shipments to disposal, problems obtaining proof of shipment information, and non-
     receipt of DRMS follow-up transactions. None of the 13 Navy organizations that we
     evaluated or reviewed responded to DRMS follow-up transactions requesting the
     status of materiel reported as shipped but not received. Reviewing DRMS follow-up
     transactions is critical in ensuring that materiel in-transit to disposal is properly
     accounted for and not subject to theft or other forms of fraudulent activity because of
     loss of asset visibility.


Disposal Shipment Notification Transactions
     Navy organizations did not send shipment notification transactions to DRMS, as
     required by Navy and DoD guidance, because some Navy personnel were not aware
     of the requirement. Our analysis of DAAS data from May 2002 through April 2003
     showed that DRMS sent approximately 85,000 disposal receipt follow-up
     transactions to all Navy organizations that had not sent shipment notification
     transactions. The 13 Navy organizations included in our evaluation of disposal
     transactions accounted for about 13,000 of the 85,000 transactions. The shipment
     notifications had not been sent because personnel were unaware of the requirement to
     send DRMS a disposal shipment notification for every DTID. We could not calculate
     the dollar value of the 13,000 transactions because there were problems with the data
     in the quantity field of those transactions. If disposal shipment notification
     transactions are not sent to DRMS, there is no accountability or visibility of the
     materiel being shipped to disposal because due-ins are not established for materiel
     that qualify for ICS tracking. An example of the lack of accountability follows.

     The Naval Aviation Depot (NADEP) San Diego, California, used the Commercial
     Asset Visibility, Organic Repair Module to operate its maintenance program. The
     Commercial Asset Visibility, Organic Repair Module does not interface with the
     DAAS that transmits disposal shipment notification transactions to the DRMS, and
     the individual responsible for preparing DTIDs stated that she was unaware of the
     requirement to submit disposal notification transactions to DRMS. Included in our
     judgment sample of 700 disposal transactions were 66 transactions, valued at about
     $1.25 million, selected from NADEP supply records. Of the 66 transactions,
     9 transactions, valued at $297,033, were not recorded as received at DRMS, and
     NADEP San Diego personnel could not account for materiel; and five of the nine
     transactions, valued at $141,000, involved materiel that was classified as pilferable.
     There was no accountability or visibility for the $297,033 worth of materiel because
     NADEP had not sent disposal shipment notifications to the DRMS.


Disposal Shipment Confirmations
     Because of a computer programming error, the Navy’s Realtime Reutilization Asset
     Management (RRAM) Program Office, Mechanicsburg, PA, erroneously sent about
     14,400 disposal shipment confirmation transactions (document identifier code ASZ)
     to DRMS instead of sending disposal shipment notification transactions.


                                            7
    The 14,400 ASZ transactions represent about 52 percent of approximately
    27,600 ASZ transactions generated by the Navy during the 12-month period ending
    April 2003. The RRAM program office provides a real-time visibility inventory of
    Navy residual assets.

    The purpose of an ASZ transaction is to provide status to a DRMS shipment
    follow-up transaction and results in the cancellation of the ICS due-in at the DRMS.
    An ASZ transaction confirms to DRMS that there is proof, such as a signed DTID,
    that the shipment was delivered to DRMO even if there is no evidence of receipt at
    the DRMS. When an incorrectly generated ASZ transaction is received at DRMS, the
    transaction is entered into the ICS. However, the ASZ transaction does not establish
    a due-in, and as a result, the transaction is not subject to the follow-up process. Our
    review of the RRAM program office’s ASZ transactions showed that 214 of the
    14,400 ASZ transactions, valued at about $659,900, would have qualified for
    inclusion in the ICS had the required shipment notification transactions been sent to
    DRMS. Erroneous shipment notification transactions result in lost asset visibility.
    RRAM program office personnel agreed that the computer system needed to be
    reprogrammed to send the required shipment notification transactions to DRMS.

DRMS ICS Management Data
    The Navy and DRMS did not use or evaluate ICS data to monitor in-transit
    accountability and improve the accuracy of the data in the ICS system. DoD
    Manual 4000.25-1-M requires DRMS to prepare and send the Military Departments a
    quarterly in-transit management report. In 1994, the Navy and the Air Force
    requested to be removed from the distribution list for the report because it contained
    only summary type statistics, which was not useful. DRMS subsequently
    discontinued producing the report because DoD was downsizing and the Military
    Departments did not have the resources required to research the significant number of
    discrepancies noted in the report.

    We agree with the Navy and the Air Force that the report did not provide enough
    detailed information for it to have been useful to monitor in-transit shipments to
    disposal. However, detailed information is available in the DRMS management
    information system and if materiel that is in-transit to disposal is to be properly
    monitored, both detailed and summary information needs to be reviewed by the
    shipping organization and monitored by DRMS. By analyzing the DAAS disposal
    transaction data, we identified the following problem areas that both the Navy and
    DRMS would have identified if a detailed report had been produced.

           •   The ICS contained transactions that were less than $800 and not coded as
               pilferable or sensitive. According to DRMS personnel, that condition
               occurred because Navy organizations submitted shipment disposal
               notifications with incorrect unit prices, which caused the total dollar value
               of the shipment to exceed $800. As a result, DRMS follow-up
               transactions were sent to Navy organizations for disposal transactions that
               did not meet the criteria for follow-up and could result in unnecessary
               research by Navy personnel. Our analysis of DAAS data for the 12-month
               period ending April 30, 2003, showed that 13,925 of the 18,263 shipment
               confirmation follow-ups that DRMS sent to Navy organizations were
               valued at less than $800 and were not sensitive or pilferable.


                                           8
               •   Navy non-disposal supply status transactions intended for organizations
                   other than DRMS were erroneously sent to the DRMS, entered into ICS,
                   and resulted in ICS sending unnecessary follow-up transactions to Navy
                   organizations. The supply status transactions were sent to DRMS because
                   Navy organizations erroneously included a code in card column 54 of the
                   non-disposal supply status transactions, which indicated that the
                   transactions were for disposal. Our analysis of the DAAS database
                   showed that DRMS sent 2,217 follow-up transactions, valued at
                   $8.47 million, to Navy organizations for non-disposal supply status
                   transactions, which were erroneously sent to DRMS.


Conclusion
       There is sufficient guidance and management information to monitor materiel
       designated for, or sent to, DRMS. However, Navy organizations are either not
       preparing or are erroneously preparing disposal shipment notifications to DRMS and
       are not performing the required research on DRMS follow-up transactions.
       Additionally, neither the Navy nor DLA is using available management information
       to monitor compliance with the guidance. As a result, Government property is
       vulnerable to loss and resources may be expended unnecessarily to research
       erroneous disposal transactions.


Management Comments on the Finding Discussion and Audit
 Response

Navy Comments. The Navy concurred with those portions of the finding applicable to the
Navy. However, the Navy stated that the dollar value impact of the disposal transactions was
overstated. The Navy stated that the materiel in question was reported as potential
reutilization stock and is valued at 1.9 percent of the last acquisition cost in the Navy Supply
Systems Inventory Report. The dollar value of the 700 disposal transactions in the Navy
supply system is $1.7 million, rather than the $134.4 million we reported, and the dollar
value of property vulnerable to loss is $500,000, rather than the $39 million we reported.

Audit Response. Regardless of whether the Navy recognizes the latest acquisition cost of
$134.4 million or a devalued reutilization cost of $1.7 million, the materiel is either useable
or pilferable or sensitive materiel and should be controlled through the ICS. We used the
standard price of the materiel to determine the disposal transaction values because that is the
valuation method that DRMS uses to determine if disposal transactions should be included in
the ICS.




                                               9
Recommendations and Management Comments
    1. We recommend that the Commander, Naval Supply Systems Command:

           a. Establish controls to ensure that Navy organizations comply with
    Naval Supply Command Publication P-485, “Ashore Policy,” June 1998,
    requirements to:

                         (1) Transmit shipment notification transactions to the
    Defense Reutilization and Marketing Service when materiel is shipped to the
    Defense Reutilization and Marketing Office and ensure that the data in the
    shipment notification is accurate.

    Management Comments. The Navy concurred, stating that it has taken action to
    ensure that fleet activities comply with current policy and that it has reissued
    NAVICP Instruction 4570.1A to clarify current policy and guidance outlined in the
    NAVSUP P-485 to ensure that shipment notification transactions are transmitted to
    the cognizant DRMO.

                         (2) Review and research Defense Reutilization and
    Marketing Service follow-up transactions for materiel reported as shipped but
    not received, and respond to the Defense Reutilization and Marketing Service
    follow-up transactions in a timely manner.

    Management Comments. The Navy concurred, stating it has advised fleet activities
    to comply with the current policy and has reissued NAVICP Instruction 4570.1A to
    clarify current policy outlined in the NAVSUP P-485. The Navy also stated that it
    will pass follow-up transactions to the generating activities on a weekly basis.

           b. Establish controls to ensure that Navy organizations either
    demilitarize materiel or provide demilitarization instructions to Defense
    Logistics Agency depots, prior to requesting the depot to ship materiel to
    disposal, and respond to depot requests for demilitarization instructions in a
    timely manner.

    Management Comments. The Navy concurred, stating that NAVICP has recently
    assumed the duties as the Navy Program Manager for Demilitarization and Trade
    Security Controls. The NAVICP is working with the DoD Program Office, other
    Services, and Navy System Command and Fleet personnel to identify deficiencies in
    the demilitarization process. As deficiencies are identified, the NAVICP will seek
    solutions and funding to rectify the problem.
            c. Validate that the Realtime Reutilization Asset Management Program
    Office reprograms its computer system to ensure that disposal shipment
    notifications, rather than disposal shipment confirmations, are sent to DRMS for
    disposal shipments.

    Management Comments. The Navy concurred, stating that the RRAM database
    administrator has confirmed that the RRAM computer programs have been corrected.




                                         10
       d. Request that the Defense Reutilization and Marketing Service provide
management reports which identify Navy organizations that are not responding
to disposal follow-up transactions for materiel reported as shipped but not
received and that are not sending disposal shipment notifications for materiel
shipped to disposal.

Management Comments. The Navy concurred, stating that NAVICP will monitor
the processing of disposal directives between the fleet and the NAVICP. In addition,
the NAVICP has requested reports from DRMS and will provide NAVICP oversight
to ensure compliance by fleet activities.

2. We recommend that the Director, Defense Logistics Agency:

          a. Establish controls to ensure that Defense Distribution Depot
personnel request the required demilitarization instructions for all materiel
awaiting disposal instructions and reverse the disposal transactions if the
required instructions are not received.

Management Comments. DLA concurred, stating that the Defense Distribution
Center is drafting a new instruction letter to Defense Distribution Centers explaining
how to handle demil Code F, G, and P items. Additionally, DLA will place the demil
instruction in future A-76 Performance Work Statements and modify existing
contracts for Defense Distribution Centers that are contractor-operated.

           b. Establish controls to ensure that the Defense Reutilization and
Marketing Service reviews and analyzes management data to identify Navy
organizations that are not routinely preparing shipment disposal notifications or
are not routinely responding to follow-up transactions and identify to the Naval
Supply Systems Command potential problems with data in the in-transit control
system in order for the Naval Supply Systems Command to ensure that Navy
organizations comply with disposal procedures.

Management Comments. DLA concurred, stating that the DRMS will collaborate
with the Navy to meet the standards set forth in the report.




                                      11
Appendix A. Scope and Methodology
   We performed the audit at 14 Navy activities and 2 commercial contractor facilities:

          •   Navy Transportation Organization, ATAC (Advanced Traceability and
              Control), Norfolk, VA;

          •   Four Naval Fleet Industrial Supply Centers located in Jacksonville, FL;
              Norfolk, VA; San Diego, CA; and Pearl Harbor, HI;

          •   Two NADEPS located in Jacksonville, FL and San Diego, CA;

          •   Three Naval Air Stations located in Willow Grove, PA; Virginia Beach,
              VA; and Patuxent River, MD;

          •   Naval Shipyard Norfolk, VA;

          •   Naval Surface Warfare/Weapons Center Crane, IN;

          •   Realtime Reutilization Asset Management Program Office,
              Mechanicsburg, PA;

          •   Trident Refit Facility, Kings Bay, GA; and

          •   Two commercial contractors that repair Navy depot level repairable
              assets: Boeing Aerospace Support Center, Cecil Field, FL and Logistics
              Services International Jacksonville, FL.

   We also visited the following activities during the course of the audit:

          •   Four DLA distribution depots located in Jacksonville, FL; San Diego, CA;
              Pearl Harbor, HI; and Norfolk, VA;

          •   Five DRMOs located in Jacksonville, FL; Norfolk, VA; San Diego, CA;
              Pearl Harbor HI; and Crane, IN;
          •   DRMS, Battle Creek, MI;

          •   Naval Supply Systems Command, Mechanicsburg, PA; and

          •   NAVICP Philadelphia, PA.

   We performed this audit from February 2003 through January 2004 in accordance
   with generally accepted government auditing standards. The documents we
   reviewed, which were dated from October 1991 through January 2004, included
   DoD, DRMS, and Navy disposal guidance; commercial contractor desk procedures;
   supply and storage records; and DTIDs.




                                          12
    We obtained databases of disposal related transactions from the NAVICP and DAAS.
    The NAVICP database contained 40,280 issues for disposal transactions for the
    period March 2002 through February 2003. The DAAS database contained
    94,074 disposal shipment follow-up transactions for the period May 2002 through
    April 2003. For the DAAS data, additional information was obtained from the
    Federal Logistics Information System to determine the source of supply, the demil
    code, the controlled inventory item code, the acquisition advice code, and the unit
    price for disposal transactions. In our analysis of the databases, we judgmentally
    selected the Navy organizations and commercial contractors to include in our audit
    tests. In selecting the organizations, we considered the volume and dollar value of
    DRMS disposal transactions, including both disposal receipt and shipment follow-up
    transactions.

    To determine if materiel designated for, or shipped to, disposal was received at
    DRMOs or was otherwise accounted for, we selected judgmental samples of
    700 disposal transactions, valued at about $134.3 million, which were processed by
    13 Navy organizations and 2 commercial contractors. The sample of 700 transactions
    included 141 issue for disposal transactions from the NAVICP Philadelphia-supplied
    database and 207 second disposal shipment confirmation follow-up transactions from
    the DAAS database. We also judgmentally selected a reverse sample of 352 disposal
    shipments from supply records of the 13 Navy organizations selected for review. For
    the RRAM Program Office, we only evaluated why that organization accounted for
    14,400 of the 27,600 disposal shipment confirmation transactions that the Navy sent
    to DRMS.

    Use of Computer-Processed Data. We relied on computer-processed data from the
    DAAS, the Navy’s Uniform Automated Data Processing System, the DLA
    Distribution Standard System, the DRMS Automated Information System and Web
    Enabled Document Conversion System, the NAVICP Commercial Asset Visibility
    System, and the ICS. To the extent that we reviewed the data, we found that data in
    the ICS database was not totally accurate. We identified some transactions that were
    included in the ICS that were not classified as pilferable and sensitive and were
    under $800. These erroneous transactions in the ICS would not preclude the use of
    the data to meet the audit objective, or change the conclusions in this report.

    General Accounting Office High-Risk Area. The General Accounting Office has
    identified several high-risk areas in DoD. This report provides coverage of the
    inventory management high-risk area.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are operating
    as intended and to evaluate the adequacy of the controls.




                                         13
      Scope of the Review of the Management Control Program. We reviewed the
      adequacy of DLA and Navy controls over materiel shipped to disposal. Specifically,
      we reviewed management controls to ensure that materiel shipped to disposal by
      Navy organizations was recorded as received at the DRMS or otherwise accounted
      for.

      Adequacy of Management Controls. As defined by DoD Instruction 5010.40, we
      identified material management control weaknesses in the Navy. Navy organizations
      were not complying with procedures to ensure that materiel shipped to disposal was
      not vulnerable to loss or undetected theft. Navy organizations did not review or
      respond to DRMS follow-up transactions requesting the status of materiel reported as
      shipped but not received and either did not provide shipment status for materiel that
      was shipped to disposal or erroneously provided status for materiel that was not
      shipped to disposal. Additionally, the Navy did not use DRMS management data to
      monitor in-transit accountability. Recommendation 1. in this report, addressed to the
      Commander, NAVSUP, if implemented, will correct the material weaknesses
      identified by this audit.

      Adequacy of Management’s Self-Evaluation. The Navy did not identify shipments
      to disposal as an assessable unit and, therefore, did not identify or report the material
      management control weaknesses identified by the audit.


Prior Coverage
      During the last 5 years, the General Accounting Office (GAO) and the Inspector
      General of the Department of Defense (IG DoD) have issued 3 reports discussing
      controls over shipment to DRMOs. Unrestricted GAO reports can be accessed over
      the Internet at http://www.gao.gov. Unrestricted IG DoD reports can be accessed at
      http://www.dodig.osd.mil/audit/reports.

GAO
      GAO Report No. 01-30, “Implementation Plans to Enhance Control Over Shipped
      Items Can Be Improved,” November 2000
      GAO Report No. NSIAD-99-84, “ Property Being Shipped to Disposal Not Properly
      Controlled,” July 1999

IG DoD
      IG DoD Report No. 99-029, “Property Disposal Management Controls,”
      November 3, 1998




                                             14
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Commander, Naval Supply Systems Command
  Commander, Naval Inventory Control Point
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organization
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget




                                           15
Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee on
  Government Reform
House Subcommittee on National Security, Emerging Threats, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations, and
  the Census, Committee on Government Reform




                                           16
Department of the Navy Comments




                    17
18
19
20
21
22
Defense Logistics Agency Comments




                     23
24
Team Members
The Readiness and Logistics Support Directorate, Office of the Deputy Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to this report are listed below.


Shelton R. Young
Terrance Wing
James Mc Dermott
Paul Hollister
Herman Tolbert
Brett Mansfield
Mike Talevi
Susann L. Cobb
